<html>
<title> - [H.A.S.C. No. 114-48]OPTIMIZED FLEET RESPONSE PLAN</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                         [H.A.S.C. No. 114-48]

                     OPTIMIZED FLEET RESPONSE PLAN

                               __________

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON READINESS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           SEPTEMBER 10, 2015


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


                               ____________
                               
                              
                          U.S. GOVERNMENT PUBLISHING OFFICE
96-239                           WASHINGTON : 2016                          
                                     
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7c1b0c133c1f090f081419100c521f131152">[email&#160;protected]</a>  
                                     
                                     
  
  
  
  
  
  


                       SUBCOMMITTEE ON READINESS

                 ROBERT J. WITTMAN, Virginia, Chairman

ROB BISHOP, Utah                     MADELEINE Z. BORDALLO, Guam
VICKY HARTZLER, Missouri             SUSAN A. DAVIS, California
AUSTIN SCOTT, Georgia                JOE COURTNEY, Connecticut
ELISE M. STEFANIK, New York, Vice    JOAQUIN CASTRO, Texas
    Chair                            TAMMY DUCKWORTH, Illinois
FRANK A. LoBIONDO, New Jersey        SCOTT H. PETERS, California
MIKE ROGERS, Alabama                 TULSI GABBARD, Hawaii
CHRISTOPHER P. GIBSON, New York      BETO O'ROURKE, Texas
RICHARD B. NUGENT, Florida           RUBEN GALLEGO, Arizona
BRAD R. WENSTRUP, Ohio
SAM GRAVES, Missouri
STEVE RUSSELL, Oklahoma
                Craig Collier, Professional Staff Member
               Vickie Plunkett, Professional Staff Member
                        Katherine Rember, Clerk
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bordallo, Hon. Madeleine Z., a Delegate from Guam, Ranking 
  Member, Subcommittee on Readiness..............................     1
Wittman, Hon. Robert J., a Representative from Virginia, 
  Chairman, Subcommittee on Readiness............................     1

                               WITNESSES

Harley, RADM Jeffrey A., USN, Assistant Deputy Chief of Naval 
  Operations for Operations, Plans, and Strategy (OPNAV N3/5B); 
  and CAPT Thom Burke, USN, Director, Fleet Readiness (N43)......     2

                                APPENDIX

Prepared Statements:

    Harley, RADM Jeffrey A., joint with CAPT Thom Burke..........    29

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Ms. Bordallo.................................................    43
    Mr. Courtney.................................................    43

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
                     
 
		OPTIMIZED FLEET RESPONSE PLAN

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                 Subcommittee on Readiness,
                      Washington, DC, Thursday, September 10, 2015.
    The subcommittee met, pursuant to call, at 8:01 a.m., in 
room 2212, Rayburn House Office Building, Hon. Robert J. 
Wittman (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ROBERT J. WITTMAN, A REPRESENTATIVE 
       FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Wittman. I call to order the House Armed Services 
Committee Subcommittee on Readiness.
    I want to welcome folks to our hearing this morning, on the 
Optimized Fleet Response Plan. I want to thank our witnesses 
for being here with us this morning, Rear Admiral Jeffrey A. 
Harley and Captain Thom Burke.
    And as I said, I especially want to thank Rear Admiral 
Jeffrey Harley, Assistant Deputy Chief of Naval Operations, for 
Operations, Plans and Strategy, and Captain Thom Burke, 
Director of Fleet Readiness, for being here today. Thank you 
for joining us here at this hour of the morning.
    We are looking forward to hearing about the Navy's 
Optimized Fleet Response Plan [O-FRP], and we have heard about 
the stress that recent and current operations have put on our 
fleet. And I look forward to hearing the Navy's plan to address 
these issues.
    I would now like to turn to my ranking member, Ms. 
Madeleine Bordallo, for her opening comments.

STATEMENT OF HON. MADELEINE Z. BORDALLO, A DELEGATE FROM GUAM, 
           RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Ms. Bordallo. Good morning, and thank you very much, Mr. 
Chairman. And I thank the witnesses--and I like calling this 
hearing so early in the morning.
    Mr. Wittman. Thank you.
    Ms. Bordallo. I enjoy it. Today we will discuss the Navy's 
Optimized Fleet Response Plan, which is a new readiness 
construct that should enable the Navy to provide a predictable 
deployment schedule for our sailors, and support the growing 
operational tempo for the fleet and growing mission 
requirements across the globe.
    The O-FRP is a readiness construct that arises from 
significant strains on the force that pose challenges for the 
Navy's continued readiness.
    The O-FRP has been developed to respond to current day 
requirements, and is intended to endure into the future. The O-
FRP is certainly a solid plan to address readiness challenges, 
but questions remain about its viability into the future.
    This subcommittee has been tracking development of the O-
FRP, and directed the GAO [Government Accountability Office] to 
review the plan to get greater fidelity on the plan's ability 
to adapt to changing circumstances that are beyond anyone's 
control.
    For example, what would significant delays in shipbuilding 
or ship maintenance availabilities do to the O-FRP, and how 
would forces be generated without disrupting dwell time and 
predictability for our sailors?
    Further, I hope our witnesses can touch on how they are 
ensuring the readiness of logistics and support vessels in the 
Military Sealift Command [MSC] fleet to support the carrier 
strike groups [CSGs].
    A key component of the O-FRP is to ensure that our Navy 
remains forward deployed, and the MSC is critical to supporting 
that effort. The O-FRP does a good job in outlining the 
deployment cycle for carrier strike groups, but I would like to 
get better fidelity on MSC ship maintenance and repair to 
support the carrier strike groups.
    And further, this level of fidelity would be welcomed by 
the shipyards, so that they have even more predictability to 
support the readiness of the fleet.
    I also hope our witnesses can touch on the value of having 
shipyards or robust ship repair capabilities in forward 
locations to truly support a forward deployed Navy.
    As our witnesses have indicated and news articles have 
highlighted, full implementation of the O-FRP will take years 
and years. So, it is important to fully explore the plan and 
make sure that it works, not just for today's requirements, but 
enduring into the future.
    So, I look forward to a robust discussion about the plan 
and how it will endure, as well as how we overcome unforeseen 
challenges.
    And again, Mr. Chairman, I thank you and I yield back.
    Mr. Wittman. Thank you, Ms. Bordallo.
    We will now go to our witnesses, Admiral Harley and then 
Captain Burke, for your opening comments.

  STATEMENT OF RADM JEFFREY A. HARLEY, USN, ASSISTANT DEPUTY 
 CHIEF OF NAVAL OPERATIONS FOR OPERATIONS, PLANS, AND STRATEGY 
   (OPNAV N3/5B); AND CAPT THOM BURKE, USN, DIRECTOR, FLEET 
                        READINESS (N43)

    Admiral Harley. Chairman Wittman, Ranking Member Bordallo, 
distinguished members of the subcommittee, Captain Burke and I 
are honored to be here today to discuss the Optimized Fleet 
Response Plan, known as O-FRP.
    O-FRP is the Navy's sustainable readiness generation model, 
and it is how we will maintain and train our ships to deploy in 
support of our national security interests. It provides a force 
that is ready for any challenge, from a high-end conflict 
against a peer competitor to humanitarian operations.
    We would like to begin this statement by providing an 
overview of O-FRP, and then some highlights of how O-FRP will 
balance global presence with warfighting readiness and the 
long-term health of the force.
    Our Navy has managed force generation using the Fleet 
Response Plan since it was adopted in 2003 and fully 
implemented in 2007. This cyclic process was designed to 
synchronize periodic deep maintenance and modernization 
necessary to readiness with the training of the fleet, to 
achieve global force management allocation plan forward 
presence objectives and provide contingency response capacity.
    The reality of the past decade has seen a smaller fleet, 
along with continuing employment of our contingency response 
capacity to generate increased presence. This drove up 
maintenance requirements and in turn, compressed the time 
available to complete required maintenance and training.
    In testimony over the last several years, the Navy has 
described this practice as unsustainable.
    This prolonged period of high operational tempo resulted in 
a loss of scheduled predictability, personnel gaps, deferred 
maintenance and modernization, and overall reduction in the 
health of the force.
    From 2008 to 2011, carrier strike group deployments 
averaged about 6.5 months in length. From 2012 to 2014, this 
increased to an average of 8.2 months as the Navy extended 
deployment lengths to meet global commitments to the combatant 
commanders.
    More recently, Nimitz and Harry S. Truman completed 8.5-
month deployments in fiscal year 2014. George H.W. Bush 
completed a 9-month deployment, Carl Vinson completed a 9.5-
month deployment, and Theodore Roosevelt will complete an 8.5-
month deployment this year.
    Maintenance is the key factor to the health of the force. 
To meet national tasking, we have extended deployment lengths, 
which increased the wear on our ships, and resulted in 
additional maintenance and repairs that lengthened planned 
maintenance availabilities.
    Operational schedule changes to meet combatant commander 
requirements, funding shortfalls, shipyard loading constraints, 
late modernization adds, and other factors led to inefficient 
maintenance and modernization planning, contracting, and 
completion.
    Given these increased maintenance demands and shipyards, we 
should have been hiring more workers. Instead, because of the 
continuing resolution and sequestration-driven hiring freeze 
and overtime restrictions through much of fiscal year 2013, we 
were losing people to other employment opportunities or to 
retirement, without replacement.
    We are still hiring to try to recover that shortfall. But 
we have to train those workers who do not have the requisite 
skills. This lack of skilled shipyard labor has further 
impacted performance and completion timelines. These 
operational and budget decisions directly contributed to the 
maintenance challenges that we now face.
    The pace of operations, and providing ``just in time'' 
readiness to deploy, also affected our people, our sailors--
including a number of last-minute ``cross-deck'' moves, which 
means pulling sailors off one ship and putting them onto 
another just in time for the next deployment.
    Consequently, we were challenged to retain our best sailors 
due to uncertain schedules and increased time away from home, 
and the attendant loss of stability for sailors and their 
families. We are now paying the price for the prolonged high 
operational tempo experienced these last few years. We have 
testified to the unsustainability of that operational tempo.
    Combatant commander requirements, meanwhile, continue to 
grow and although we have historically sourced to our capacity 
we are routinely asked to surge additional forces or to extend 
forces on station. In these cases we are not so much generating 
new readiness as we are consuming the future presence and 
future surge capacity.
    This year, the Navy began implementation of the O-FRP to 
try to reset in stride, to address these challenges. Designed 
to stabilize maintenance schedules and provide sufficient time 
to maintain and train the force while maximizing employability, 
O-FRP also aligns supporting processes and resources to improve 
the overall health of the force. Importantly, it will provide a 
more predictable schedule for our sailors and their families.
    We will continue O-FRP implementation across the Future 
Years Defense Program with a goal of full implementation by 
2020.
    The CNO's [Chief of Naval Operations] overarching guidance 
was to establish a balanced, sustainable and predictable force 
readiness generation cycle that would maximize the 
employability of our force structure.
    O-FRP is intended to deliver several specific outcomes. 
First, O-FRP will permit us to preserve the time necessary for 
maintenance and training. We need to protect maintenance time 
to preserve the long-term health of the force.
    Delaying or deferring maintenance plans places equipment at 
increased risk and increases the risk of equipment casualties 
at sea when we need those equipment the most. Disruptions to 
maintenance planning also increases cost, reduces public 
shipyard productivity, and increases the risk to the private 
ship repair industrial base.
    Furthermore, stable and predictable maintenance and 
modernization supports our warfighting readiness and 
interoperability. If we don't complete maintenance on time, we 
can't start training on time. If we have to compress training 
to meet global presence requirements, this negatively impacts 
our full-spectrum readiness over the long term.
    The improvements in maintenance will lead to overall 
greater operational availability. Greater operational 
availability means less likelihood of lengthened or multiple 
deployments in the same cycle.
    O-FRP will also improve the quality of work and enhance the 
quality of life for our sailors. O-FRP will lead to enhanced 
quality of life through more predictable schedules for our 
sailors and their families. Stabilized manning also reduces the 
likelihood of last-minute cross-deck personnel actions and will 
result in fewer operational holds of sailors who have already 
served their time at sea.
    O-FRP will provide standardized manning, training, 
equipping, and alignment of operational and tactical 
headquarters. It will provide a consistent chain of command 
throughout the O-FRP cycle. Ultimately, these factors are 
interrelated. For the investment in maintenance and training, 
an increased period of operational availability supports both 
forward presence commitments and recovering our contingency 
response capability.
    Our transition, as noted, to O-FRP will occur over several 
years. Carrier strike group and amphibious ready group [ARG] 
transitions are already in progress. We project the last CSGs 
and ARGs will enter O-FRP in fiscal year 2018. We have approved 
and are implementing O-FRP cycles for our remaining units, 
including ships homeported overseas, attack submarines, 
maritime patrol and reconnaissance aircraft, and our 
expeditionary forces such as explosive ordnance disposal, 
coastal riverine forces, and naval construction forces.
    For our ships and submarines, completing maintenance 
availabilities on time is essential to reducing deployment 
durations. Maintenance delays may result in other ships 
completing extended deployment to meet global commitments.
    The fiscal year 2016 President's budget [PB-16] made a 
significant investment to increase available naval shipyard and 
aviation depot capacity. We have moved some submarine work to 
the private sector and increased the size of the workforce.
    Navy is making significant investments in workforce 
training to improve worker productivity. The combination of 
these improvements will reduce the number of availabilities 
that exceed scheduled end dates.
    Additionally, in support of O-FRP implementation, we have 
synchronized carrier and surface combatant maintenance periods, 
standardized the training of our headquarters staffs, and 
consolidated and streamlined inspection processes.
    We have made significant progress in ensuring our ships are 
properly manned prior to commencing the training cycle. We are 
continuing to work to ensure maintenance and modernization 
periods are completed on time.
    For the progress we have made, we must be prepared to 
address potential roadblocks to O-FRP implementation. We will 
need to fund O-FRP to the right standards for manpower, 
maintenance and training, and across all readiness pillars.
    PB-16 does that, but a return to Budget Control Act levels 
will certainly disrupt O-FRP implementation.
    We need to meet not only the numbers for manpower fit and 
fill, but ensure the quality of the fit is correct, ensuring a 
trained sailor with the right skills arrives at the right time.
    We need to closely manage ship schedules and alignment of 
surface combatant and amphibious ships with the aircraft 
carriers and big-deck amphibious ships.
    This is complex because it involves coordinating 
maintenance and modernization schedules across numerous 
shipyards.
    We need to invest in increasing shipyard capacity by 
addressing workforce manning and training requirements. We will 
have to execute the planned PB-16 investment to increase 
available naval shipyard capacity by moving submarine work to 
the private sector and increasing the shipyard workforce to 
33,500 full-time equivalents by fiscal year 2017.
    Finally, responding to emerging crises with surge or 
extended deployments will disrupt schedules and could further 
delay O-FRP implementation.
    We are carefully managing the O-FRP implementation and 
execution and will be prepared to adjust course as necessary.
    Lastly, I would like to talk about the risks we face if we 
do not implement O-FRP. We cannot continue doing business as 
usual and expect to maintain an operational and tactical 
advantage over our adversaries. If we do not implement O-FRP, 
our challenges will continue to grow.
    We will be unable to retain our best sailors due to high 
operational tempo and schedule unpredictability. Through the 
cumulative effect of high operational tempo and maintenance 
challenges, we also will be unable to reach the expected 
service life of our ships, submarines, and aircraft.
    Additionally, degraded material readiness leads to reduced 
warfighting readiness, ineffective training, and increased 
safety risks. We will be unable to preserve the required 
industrial support base. We will continue to have inefficient 
maintenance/modernization planning and scheduling, which will 
lead to unacceptable and unaffordable cost overruns, training 
entitlement impacts, and deployment delays.
    Lastly, we continue to consume our contingency surge 
capacity for routine operations. It will be more challenging to 
meet Defense Strategic Guidance objectives of the future.
    Ultimately, this is a ``pay me now or pay me later'' 
discussion. If we are not given time to reset the force through 
O-FRP, and are forced to source beyond sustainable levels, we 
will remain challenged in all of these areas.
    So in conclusion, after years of operating above 
sustainable levels, we remain challenged to meet the necessary 
surge capacity in quantity and readiness across a wide array of 
forces. Moreover, a return to Budget Control Act authority 
levels will further challenge our maintenance, readiness, 
training, and risks reversing recent gains.
    Your great Navy will continue to man, train, and equip 
combat-credible forward naval presence--being where it matters, 
when it matters--as well as supporting our commitment to allies 
and partners. Our naval functions--deterrence, sea control, 
power projection, maritime security, and all-domain access--
remain essential to our strategy.
    But we cannot sustain the health of the force indefinitely 
without adopting and fully implementing O-FRP as our 
sustainable force generation model. We thank the subcommittee 
for your continued support and we look forward to answering 
your questions.
    [The joint prepared statement of Admiral Harley and Captain 
Burke can be found in the Appendix on page 29.]
    Mr. Wittman. Admiral Harley, thank you. Thank you for that 
comprehensive overview about O-FRP and what it means and the 
challenges that we face ahead. I appreciate you putting your 
perspective, too, what Congress's obligation needs to be to 
make sure that we create that readiness and make sure that we 
are creating it faster than we are consuming it. Great--great 
perspectives.
    What I will do is begin with just a single question, and 
then I want to make sure we go to the members here and then I 
will come back.
    You spoke at length about making sure that there is proper 
capacity there, both in the private yards and the public yards, 
increasing staffing there. One of the things we look at as far 
as maintenance availabilities, as you so eloquently stated, the 
maintenance availabilities have backed up based on deployment 
schedules from 2012 through 2014.
    So now we have this bow wave of maintenance availabilities 
that have to be taken care of, getting those ships to the yard. 
That also creates a bow wave, as you said, in capacity in our 
yards. The key, though, is to make sure that we maintain that 
capacity moving forward past taking care of the bow wave that 
comes in and getting these ships maintained.
    How does O-FRP make sure we are not in this roller coaster 
ride again where we have all this work that goes to the yards 
and then all of a sudden the need for that capacity now goes 
away? So we ramp up to that 33,000 staffing level in the yards, 
both public and private, and then once that work is done, you 
know, we drop off and the demand is not there.
    So give us a perspective about how O-FRP, you know, keeps 
that certainty for all of our yards to make sure, as you have 
talked about, and we have seen this where we lose people from 
the yards because the work goes away and then we scramble to 
get folks back and those skills never return. And when we do 
have to hire folks, as you know, it takes a significant amount 
of time for them to develop the skills to be effective and for 
efficiencies to be found in the yard.
    So give me an idea about how as we go into 2015, 2016, and 
2017, and then obviously into 2018, how do you manage those 
peaks and valleys?
    Admiral Harley. And sir, I will let Captain Burke provide 
more detail, but what you are really addressing is this ideal 
of providing predictability for our industrial base. And that 
same predictability, if we can get to a place where the 
maintenance ends on time, that predictability translates over 
into our ability to generate force employability to meet our 
obligations for our global force presence.
    That predictability is the--underpinned by exactly that, by 
having that industrial base capable of generating the 
maintenance outcomes that we absolutely need for our program.
    Captain Burke. Sir, good morning. That is a fantastic 
question. It is right on the point. And so I think what O-FRP 
is helping us do is there is a subset of O-FRP, which is this 
new master plan we are creating to give our process 
sustainability, discipline, and stability. And so our plan is 
to try and look out much further into the future with this 
disciplined process and be able to see 9 years out, this is 
when this ship is going to be in availability.
    So it should allow us to do a much better job of placing a 
trajectory on the size of the shipyards throughout the country, 
both public and private, and what our private demand would even 
be, and be able to put a more level load throughout that long 
cycle.
    Now as we transition, there is churn there. Because we do 
it--we have a lot of work to do, to hire folks, which we are 
doing pretty well at, but getting those folks trained and 
getting them to perform at the journeyman level takes a few 
years. They are not going to show up as experts.
    So the transition is going to be--is a big challenge for 
us. But once we get there, we will be able to look much further 
into the future and look at what the load is across our yards 
so we are not causing those ups and downs. Absolutely right, 
yes, sir.
    Mr. Wittman. As well as talking, obviously, with the folks 
in the public yards, are you having conversations with folks in 
the private yards to make sure you work with them so they can 
work with you and maintaining for them that certainty, but also 
helping them manage the workforce so we are not on that roller 
coaster ride?
    Captain Burke. Yes, sir. And I think we are doing it in 
better ways than we have ever done in the past, honestly. It is 
more of a challenge. We don't have the fidelity we have with 
our public yards of exactly what skill sets we have available. 
We have great fidelity in our public yards.
    In the private yards, folks are more inclined to say they 
will take the work no matter what, so we have to be--we have to 
be honest partners with each other and understand what the 
realities are so that we are not causing them a lot of churn, 
yes, sir.
    Mr. Wittman. Ms. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman.
    I have a couple of questions, real quick questions. 
Admiral, for you, where along the O-FRP timeline does the most 
risk lie? Who is responsible for enforcing it and who has the 
authority to disrupt it?
    Admiral Harley. Most of the risk within the 36-month 
timeline for the Optimized Fleet Response Plan is the 
maintenance cycle itself. There are a number of unknowns within 
the maintenance cycle. Things get discovered that need repair.
    One of the examples is the Dwight D. Eisenhower's 
maintenance cycle was supposed to be significantly shorter, 
ended up to be twice as long, a function of a major system 
casualty that was discovered once they got into the discovery 
phase in preparation for the maintenance.
    So there are things that place the maintenance portion 
particularly at risk.
    The deployments are scheduled years in advance. It is part 
of our force offering adjudicated by the Secretary of Defense. 
And what our global force presence will be allocated with the 
capacity that we can offer.
    The shock absorber for that becomes the training cycle, and 
it is why the CNO has testified that there are maintenance 
backlogs and training backlogs that impact the ability to 
execute the Fleet Response Plan and now have potential to 
disrupt the Optimized Fleet Response Plan.
    It is why so much effort is going into ensuring the 
predictability and the completion of the maintenance cycles. 
The force generation models, the readiness generation model 
that is described in the Optimized Fleet Response Plan is 
obviously a Chief of Naval Operations responsibility, under his 
title 10 authorities of manning, training, and equipping.
    However, the commander of Fleet Forces Command is the 
executive agent for delivering the readiness of the fleet. That 
is the person who can disrupt, modify, re-organize the Fleet 
Response Plan and its goals under the auspices of the Chief of 
Naval Operations.
    Ms. Bordallo. Thank you very much, Admiral, for your direct 
answers to my questions.
    Now can you detail how the O-FRP implementation sequences 
MSC or other logistics and support vessel maintenance over the 
coming years? Again, I want to stress, the plan for the carrier 
strike groups is pretty straightforward, but it is not--but it 
is unclear how this would work for MSC.
    Admiral Harley. The O-FRP has nine lines of effort and one 
of those is MSC support. But the Military Sealift Command ships 
are not part of the Optimized Fleet Response Plan's 
methodologies. They are funded to a certain level of readiness, 
a certain number of days. They are certified to Coast Guard 
standards and civilian maintenance standards.
    So they play a significant role in supporting the rest of 
the fleet through their readiness, through their support of the 
ships and assets that are going through the Optimized Fleet 
Response Plan.
    But in terms of the processes, the alignment of manning the 
training and logistics, it is not a driver for the Military 
Sealift Command ships and platforms.
    Ms. Bordallo. Thank you. And I yield back, Mr. Chairman.
    Mr. Wittman. Thank you, Ms. Bordallo.
    We will now go to Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Admiral, the best of managers, whether they are in the 
public sector or the private sector, can't be efficient if they 
don't know what their budget is in a timely manner. Do you know 
what your budget will be for your fiscal year that starts 
October 1?
    Admiral Harley. We actually don't, sir. I think it depends 
on the decision as to whether the Presidential budget is 
approved or whether there is a continuing resolution [CR]. And 
even within the continuing resolution, there is significant 
discussion as to the lowest levels, whether it would be a House 
number or Senate number.
    And there is a significant difference between what could 
potentially be a gap of something like $3.6 billion or even up 
to a gap of $16.5 billion.
    We can certainly get you more details, but you are 
absolutely right--it creates an uncertainty and an 
unpredictability that has the potential to destabilize our 
naval execution of the Fleet Response Plan and the Optimized 
Fleet Response Plan.
    Mr. Scott. And just for the record, Mr. Chairman, for 
people who may be watching this, it is September 10, so we are 
20 days from the new fiscal year. And Admiral, I majored in 
risk management. Forgive me for the question, but is it 
possible to calculate the additional risk and cost to our 
country in both dollars and national security with the 
uncertainty that is surrounding the appropriations for the DOD 
[Department of Defense]?
    Admiral Harley. I think we have calculated the risk in 
testimony, particularly in January with the Chief of Naval 
Operations and the service chiefs discussing and testifying to 
the impacts of sequestration.
    Naval assets are somewhat different, I would suggest, than 
so many other assets and programs. The maintenance cycles are 
very long. The ability to produce readiness is an extensive 
period of time. We absolutely rely on the predictability of 
that funding.
    Continuing resolution would have impacts of its own if we 
end up there, even for a short period of time. We are likely to 
have to start deferring some maintenance because of the lack of 
predictability.
    And this has a daisy chain effect of repercussions 
throughout the maintenance schedule, a daisy chain effect in 
terms of our ability to provide global presence required to 
support and defend our allies and to meet our commitments in 
accordance with the Defense Strategic Guidance.
    Mr. Scott. I agree with you, Admiral. The only thing that a 
continuing resolution is better than would be a shutdown and 
the additional uncertainty that would come from that.
    The House passed a Defense Appropriations measure June 11 
by a vote of almost 2 to 1. I would just like to point that 
out. And now here we are 20 days from the end of the fiscal 
year and we don't have anything to tell you.
    One last comment I would make--if I wanted to destroy the 
United States, if I was their enemy, I would force their fleet 
to stay at sea longer than their maintenance schedules allow 
for, to allow us, if you will, to dilapidate the fleet.
    One of the greatest advantages that we have had over any of 
our adversaries is our ability to do depot and maintenance work 
and the industrial workforce that we have. Could you speak to 
the impact that this is having, the uncertainty has, and the 
damage that we have done to that workforce with furloughs and 
other budget maneuvers that have happened in the past?
    Captain Burke. Sir, specifically talking about the 
workforce and the furloughs, I think it is a pretty important 
point. And the uncertainty associated with it can really cause 
some serious damage.
    The shutdown, for example, that we had resulted in not only 
some furloughs and sequester results in some furloughs, but 
then they resulted in a hiring freeze. And that was actually 
more damaging because for 8 or 9 months afterwards we couldn't 
hire. And so, for example, in our air depots, with our 
aircraft, we just this summer got back to the level of folks 
working in those depots, the level we had in 2013. So we just 
got back to where we used to be.
    And we know that capacity isn't enough to handle the amount 
of aircraft we need as throughput right now. And you can make 
the same--exactly the same statement for the shipyards, sir.
    Mr. Scott. Captain, I represent Robins Air Force Base. We 
will be happy to rebuild those Navy planes for you if you need 
us to.
    Mr. Chairman, I will yield the remainder of my time and I 
appreciate the opportunity and gentlemen I appreciate your 
service.
    Mr. Wittman. Thank you, Mr. Scott.
    We will now go to Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman, and thank you to 
both the witnesses this morning.
    Admiral, I just want to get a little more clarification on 
some numbers that you just recited in terms of the impact of a 
CR and sequestration. You mentioned a $3 billion gap between 
the President's budget and one of those scenarios and up to 
$16.5 billion between the President's budget and one of those 
scenarios.
    Could you just say--is the $3 billion if we do a CR? And 
the $16.5 is a sequestration number? Is that----
    Admiral Harley. Sir, the difference between those numbers 
is the difference between the inclusion of OCO [overseas 
contingency operations] funding and the lowest common base and 
whether you would take the House number or the Senate number. 
And I understand it is one of the issues that is being 
discussed and it would still have to be adjudicated between the 
Senate and the House.
    But it is a significant difference for us. And we have 
argued that, you know, the President's budget is what we need 
to execute our missions. A continuing resolution would 
obviously place us at some number less than the President's 
budget.
    And as we look at those numbers, depending on whether it is 
a House version or a Senate version that included what could 
be--what could include a construct of the lowest base number 
for that funding, it could be a significant difference between 
those two numbers that I offered.
    Mr. Courtney. And does the OCO sort of strategy, does 
that--can that be applied towards this program, or is that just 
not considered, you know, within OCO's reach? You know what I 
am saying?
    Admiral Harley. Sir, I don't know. And I can get that back 
to you. I know----
    Mr. Courtney. I would appreciate that.
    [The information referred to can be found in the Appendix 
on page 43.]
    Admiral Harley. As we look at how we include the overall 
funding. Our goal is to reach the ultimate numbers provided 
within the President's budget.
    Mr. Courtney. Thank you. The other question--I just wanted 
to follow up, as long as we are talking about gaps, is the 
carrier gap. That is the way it is referred to in the media.
    And it looks like we are about to encounter a carrier gap, 
both in the Middle East and Asia-Pacific. Is that something 
that, again, is just episodic, that is because there was that 
delay in some of the carrier repairs that you referred to 
earlier?
    Or is that sort of going to be a structural, recurring 
phenomenon, because of O-FRP?
    Admiral Harley. Sir, first I would talk to the idea that we 
really ought to talk about capability gaps and not platform 
gaps.
    So, much has been said in the press about how we are not 
going to have an aircraft carrier in the Arabian Gulf for 
certain periods of time. And the truth is, what the Navy offers 
is what we can produce. We tell the Secretary of Defense, that 
given our readiness generation model, we can produce this 
amount of carrier presence.
    Based on global threats, the Secretary of Defense allocates 
where those resources go. And sometimes it results in a carrier 
not being assigned in the Central Command area of 
responsibility. Or sometimes it results in not being assigned 
in the Pacific Command area of responsibility, let alone all of 
the other combatant commanders.
    This phenomenon of not having a carrier present has 
happened many times in the past; six times since 1991 for 
Central Command, eight times since 1991 for the Pacific 
Command. And appreciating the significant value that a carrier 
brings to a fight and to things like deterrence, the idea of 
discussing capabilities really is important.
    Because when the carrier goes, the Joint Staff, working 
with the combatant commanders, finds methodologies by which 
they can mitigate that presence lack of the carrier.
    And to that end, they are able to mitigate and provide the 
capabilities that are required for that duration of time, until 
a carrier can be provided in accordance with our presence 
constructs.
    Mr. Courtney. A number of us were over in Pearl Harbor last 
week. And Admiral Harris and Admiral Swift sort of walked us 
through that point.
    I guess the question I still would like to understand is 
that, is this something, though, that is going to be recurring 
with O-FRP?
    Admiral Harley. So, first I would say that O-FRP is not the 
creator of gaps. O-FRP is a model that generates the optimal 
employability of the--for the number of ships that we have. Our 
goal, as stated by the CNO is to have two carriers deployed and 
a surge capacity of three other carriers.
    Where those two carriers are allocated is decided based on 
threats, and determined by the Secretary of Defense, but 
through the advice of the Joint Chiefs of Staff. Will there be 
gaps--so-called gaps in the future? Well, I would say that the 
capabilities, we find ways to mitigate that through adding 
additional fighter aircraft as a representative example.
    But our goal is to get to a sustainable generation model 
for the highest levels of readiness, that are then offered to 
the Secretary of Defense, and he makes that allocation.
    Will there be shortages of carrier presence in the future? 
I would say, most likely, because of the number of demands and 
global threats throughout the world.
    Mr. Wittman. We will now go to Mrs. Hartzler.
    Mrs. Hartzler. Thank you, Mr. Chairman. Thank you, 
gentlemen.
    I was wondering, how does the delay of the USS Gerald R. 
Ford impact the O-FRP and the operational availability of the 
Navy's carrier strike group?
    Admiral Harley. The delay of the Gerald R. Ford is a 
function of desiring to do shock trials to support the optimal 
understanding of the safety parameters, before we deploy that 
aircraft carrier.
    It does modify our ability to restore our plus-three surge 
capacity by a designated period of time that is still under 
review by Fleet Forces Command.
    Mrs. Hartzler. So, you don't have an idea right now what 
that looks like? You are still reviewing when it will be 
available?
    Admiral Harley. Well, we know, without talking through 
classified schedules that it represents about a 2-year delay in 
being able to deploy that carrier. And consequently, it means 
that we won't get back to 11 carriers able to deploy for about 
an additional 2-year period.
    We are looking at ways to mitigate our presence 
requirements to get back to our two carriers deployed and three 
surge-capable, but it does have a significant impact.
    Mrs. Hartzler. What is the relationship now between public 
and private maintenance in the shipyards?
    How much of it is done in public, how much is done in 
private? And how would you rate the capability, as well as the 
economic feasibility of doing that? Is it cost-effective or 
beneficial to have more private than public, or vice versa, or 
how do you view that?
    Captain Burke. Ma'am, the relationship is--essentially 
the--sort of straightforward roll-up is that our nuclear work 
is done in our public shipyards. Our kind of highest skill set, 
highest standard work is done in our public yards.
    And then the work for our cruisers and destroyers, our 
amphibious fleet, is done in our private--is done in the 
private yards, is sent out to those yards, contracted out.
    And then there is some work that is contracted out that is 
done on what we call top-side work, not in the propulsion 
plans, that kind of thing, in our public yards.
    So, the relationship is crucial to O-FRP being successful 
that we have the balance between both our public sector and our 
private sector understood. We have--as the chairman was talking 
about in his question as well, that we have a trajectory to the 
future, we understand what the loading is across those yards, 
so that we are not throwing major wrenches into either the 
public sector or the private sector, because it really screws 
up the planning.
    And that is a big part of why we are trying to take this 
breath, and get O-FRP, which really isn't that big a change, 
really. It is just trying to deliberately fence the time for 
maintenance, so that we can get these ships back up where they 
belong. And then we have time to offer that post-deployment 
sustainment, and really offer that surge capability again, 
which we kind of lost in our scramble to just be present over 
the last several years. Because our numbers were higher than we 
could sustain.
    Mrs. Hartzler. Certainly, predictability is important in 
industry and--you are talking employing, and training and all 
of the aspects. So, that certainly makes sense.
    What measures does the Navy use to track the performance of 
its shipyards to ensure that it is meeting its maintenance 
goals?
    Captain Burke. The big roll-up measures, ma'am, are all 
about cost and schedule. Those are the key parameters that we 
use, and we have a number of ways to measure the trajectory of 
how we are doing on cost and how we are doing on schedule, 
beyond the big roll-ups.
    So, from a business standpoint in the shipyard, that is 
what they are worried about. How long is this supposed to take 
to change this out? Is it a 5-day job? Why did it take 7 
[days]? That sort of thing. Why did it cost extra, et cetera? 
That is what we focus on.
    From a fleet perspective, they are more focused on 
operational days, the time that that ship is available at sea. 
We call that metric ``lost operational days.'' If a ship is 
supposed to be out there and able to be used by the fleet 
commander, and it wasn't available, that is an X. That is a bad 
thing. So, we want to minimize the number of lost operational 
days.
    So, we roll up all those metrics to see how we are doing.
    Mrs. Hartzler. In the initial contract, is there a penalty 
for the private contractor if they go beyond the time that they 
were originally allotted to have the maintenance done?
    Captain Burke. There can be. And it depends in the 
contracting strategy. In the private side, we are changing 
contracting strategies to go to a more firm, fixed-price type 
of strategy, which will have more of those kinds of incentives, 
or if you will, disincentives in the contract.
    Mrs. Hartzler. Thank you, Mr. Chairman.
    Mr. Wittman. Thank you, Mrs. Hartzler.
    We will now go to Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman. Thank you both for 
joining us today.
    I wanted to follow up a little bit with that--with some of 
those questions. How are we catching up? Because I think that 
the tracking is critical, and we know that reducing the 
maintenance backlogs, it just snowballs, as you all know, in 
terms of how long the fleet has to--is active, and corrosion 
issues in terms of the ships.
    I mean, there are so many things that are causing many of 
the concerns that you have. And some of those are not 
necessarily to the sequestration that we have experienced, but 
longstanding.
    So, how are we catching up with that? I mean, what are the 
strategies that are working and those which are not?
    Captain Burke. That is absolutely the right question, 
ma'am.
    So, the things I can say now are--there are a couple of 
good news stories, and then there are a couple of--we are still 
looking ats. So, the good news is the metric I just mentioned, 
lost operational days. How many days are those ships available 
to the fleet commanders?
    That has been coming down all of the last 4 years, the 
number of lost days were had for our ships at sea. So, that is 
a good thing.
    We have got a good method now to show that we are resetting 
the fleet. So we have been very concerned about the fact that 
we were trying to fix the bicycle as we rode it over the last 
number of years, and we decided we really needed to try and 
more deliberately capture how far we were off of the class 
maintenance plan for our ships. Sort of the warranty manual for 
your car throughout the life cycle. Are we on that plan? Or are 
we off that plan?
    So we have a way to capture that now and show that we are 
putting more effort against that plan and we are actually 
putting maintenance above--doing maintenance above the plan to 
catch back up. And so we can track that metric now. Those are 
the good news stories.
    The worrisome side is what we--is what I talked about 
earlier, with all these new folks we are hiring. All these new 
faces. We got to get them trained and we have got to get them 
up and performing effectively. And that is not going to happen 
overnight so we have to work through that over the next few 
years.
    Mrs. Davis. Admiral Harley, you know the problems that we 
are facing now is that they didn't just occur, we know that 
they have been going for some time. Is there--what is it that--
I think the role of the Congress obviously is critical in this 
and how we respond. Where do we fit into that?
    As specifically--I mean it is obviously the sequestration 
and whether it is a continuing resolution. But I wonder if you 
could expand a little bit more on that? Where else do you see 
the role?
    Admiral Harley. Yes ma'am, we appreciate the great 
partnership with Congress and congressional leadership in so 
many of these areas. As you know Admiral Greenert, our Chief of 
Naval Operations, released his maritime strategy in March in 
which he talked to force design construct and the things that 
our great Navy needs to be able to meet the five naval 
functions. There are things that are needed to support the O-
FRP and I have outlined some of them.
    We do use the optimization of the existing Fleet Response 
Plan to achieve a better alignment within training, within 
manning, within maintenance; to create those kinds of 
maintenance efficiencies. As we move into the long term, 
Congress can help us with ensuring the wholeness of our 
programs. We do that through looking at the logistics, through 
the parts, through the ordnance.
    Probably the most critical factor is being able to provide 
predictable and stable funding because of the differences. 
Because of the inherent difference in our Navy long-term 
processes that need that stability; with a predictability that 
goes to your industrial base. A predictability of the product; 
of the readiness that is going to be provided to the combatant 
commanders.
    All of those things is what the optimization of the Fleet 
Response Plan will offer. But it is the dialogue with Congress, 
it is the strategic underpinning, and it is particularly the 
stability of the funding is I think what the enhanced role of 
Congress would be.
    Mrs. Davis. I was a little concerned though in the 
discussion with Representative Courtney that in terms of trying 
to really help members see where this gap is because there is a 
concern about how--what is included in OCO and how we move 
forward? How we have an understanding of that.
    So I think to the extent that we can really look at that a 
little clearer would be helpful.
    Thank you.
    Admiral Harley. Yes ma'am, we can certainly set up a 
briefing for you or your staff.
    Mrs. Davis. Thank you.
    Mr. Wittman. Thank you, Mrs. Davis, we will now go to Ms. 
Stefanik.
    Ms. Stefanik. Thank you Mr. Chairman, and thank you 
gentlemen for your testimony today. I wanted to build on Mr. 
Courtney's previous line of questioning. I represent Fort Drum, 
home of the 10th Mountain Division and engaged from the 10th 
Mountain Division are brigades currently forward deployed in 
Afghanistan and Iraq. And on a recent CODEL [congressional 
delegation] with Chairman Wittman to Top Gun, I was able to see 
the significance and the critical role that the Navy has in 
providing close air support for troops on the ground, 
specifically for the 10th Mountain Division.
    Can you explain to me how the implementation of O-FRP 
restricts, impedes, or helps the Navy's ability in a joint 
environment, and in particular in the Middle East AO [area of 
operations]?
    Admiral Harley. I would say that O-FRP actually optimizes 
our readiness to support not only naval functions and missions 
but optimizes our ability to participate as a joint partner. 
For over a decade we have fought wars in Iraq and Afghanistan, 
providing things like close air support. We are currently 
engaged in operations now against ISIL [Islamic State of Iraq 
and the Levant] providing air support to enable our objectives 
in that fight as well.
    When you look at jointness, we are a joint force. We 
certainly have maritime mission tasks that we execute, critical 
missions tasks to support maritime security over the globe, the 
underpinning of the global economy. But we operate frequently 
in joint exercises and joint forces. It is part of our DNA now 
to be able to do that.
    So we can optimize the readiness that delivers the global 
presence that enables the joint force excecution of missions 
like those in Afghanistan. And the Fleet Response Plan is 
simply that, it is a readiness generator. The Optimized Fleet 
Response Plan simply optimizes the existing plan that we have.
    We are also using the Optimized Fleet Response Plan to 
reset our stride, to get back to our ability to provide the 
global force presence that we need as well as a surge capacity. 
It is going to take several years to get there but it is 
absolutely critical for our ability to maintain global 
requirements in terms of presence, but also the ability to 
respond to crises.
    Ms. Stefanik. My second question--I am sorry go ahead, 
Captain.
    Captain Burke. I wanted to just add--I would just like to 
thank you for saying that. I think a lot of people don't really 
realize how busy the Navy has been supporting our troops on the 
ground, in the Middle East especially. I had the privilege of 
spending 5 months out there while I was CO [commanding officer] 
of the USS Ronald Reagan.
    We took great pride in the fact that we never missed a 
sortie that was going over land to go support our troops on the 
ground. We always had the section that whatever it was--the 
package that was flying to go check in was ready to support 
those troops on the ground.
    So I think a lot of folks don't really understand that. 
This is, ``Well that is the Navy, they are not busy doing this 
ground fight,'' and we sort of let it sneak up on us, our 
collective understanding of how much we were stressing our 
force to be able to provide that; that air cover, that air 
presence, and all the ships associated with providing from the 
sea support. So I really appreciate you mentioning that.
    Thank you.
    Ms. Stefanik. Well, we certainly are grateful and I know 
the soldiers from the 10th Mountain Division that I represent 
are grateful for that support.
    My second question, which deals with a different topic, has 
to do with retention. As you know, retaining the best and the 
brightest soldiers is a huge issue and it is at the top of the 
priority list for the Army right now. And you touched on this a 
bit, Admiral, in your opening statement.
    Can you please elaborate on why and how the O-FRP helps 
retain sailors and any impact on their quality of life and more 
stability for their families?
    Admiral Harley. Absolutely, so one of the dilemmas that our 
people face under the demands of global presence in the past 
has been a lack of predictability. Deployments get extended, 
people get surged early. Because we haven't been able to align 
our manpower systems, you will be pulled off of one ship and 
put onto another.
    The ships suffer in readiness in terms of what we call fit 
and fill, having the right person with the right skills. And 
this translates into not being--not having the resources that 
you need to do your job. And so it leads to a frustration that 
probably culminates in reduced retention.
    We have settled in the O-FRP on a 7-month deployment. It is 
the optimal deployment length that meets the ability to enable 
the transit distances of the globe to get where we need to be, 
to be where it matters when it matters, and yet at the same 
time, we don't want those deployments to be too long. There are 
physical things that start to happen around the 8-month point 
on ships. And we have done the rigorous analysis to show that 
extended deployments have impacts on retention.
    So what the Optimized Fleet Response Plan will do is not 
only giving you better tools of fit and fill, it should give 
our sailors and their families a predictability that we haven't 
had in the past.
    Ms. Stefanik. Thank you very much. I yield back.
    Mr. Wittman. Thank you, Ms. Stefanik.
    We will now go to Mr. Gibson.
    Mr. Gibson. Thank you, Mr. Chairman. I appreciate the 
panelists. Thank you for your service and your leadership.
    My questions are going to really follow up on the previous 
one and Mr. Courtney. And in particular, with regard to the 
Global Response Force, I will be interested in your personal 
assessments as to the processes we have in place right now.
    Certainly very detailed and informative commentary this 
morning in terms of the Navy's aspects and impacts on 
operations and on deterrents.
    The Global Response Force put a lot of focus on that over 
the last several years as a means of really empowering our 
diplomats, really revitalizing deterrence, having agility in 
the American response. And I am interested in your assessment 
from the vantage point of the Navy of how we are doing as far 
as a joint force using the Global Response Force construct.
    Oftentimes in the media we hear reports of a carrier strike 
group is, you know, in the Central Command or--and so obviously 
very important, but as you have earlier stated this morning, I 
mean, this is all part of a joint force.
    How satisfied are you that the Pentagon is putting enough 
emphasis on this, especially given the war that we have been 
fighting for so long and, you know, in terms of impacts of 
meeting current requirements for the war on terror?
    And then how we are doing in relation to that? And in some 
cases taking risk in revitalizing the Global Response Force--
what--and so, towards that end, your assessment, what 
recommendations would you have for us, the Congress, that might 
enhance or improve our ability to model and simulate, 
participate in a meaningful way in exercises that all work 
toward revitalizing the Global Response Force?
    Admiral Harley. Sir, the Optimized Fleet Response Plan is 
designed as a readiness generation model, as I have said. 
Another way of articulating that is it creates employability. 
It creates predictable and sustainable employability.
    So by that I mean the CNO has testified of his goal to be 
able to achieve a two-plus-three construct, which is really 
getting to the issue of a response force. It is more than the 
one carrier ready to respond. It is creating a vision where we 
have three carriers in a surge capacity ready to respond, on 
top of the two-plus presence that is already being provided 
globally.
    So when you talk about providing a response force, that is 
really what we are talking about, is the ability to surge to 
crises or to areas of responsibility in the event of a conflict 
or in the event of a humanitarian disaster, as an example.
    CNO has stated this goal. The Optimized Fleet Response Plan 
builds towards that goal. We have lost that surge capacity as a 
function of the overuse of our ships and platforms these last 
several years. We testified that it would be unsustainable. It 
has proven to be so. And now we are dealing with the 
consequences of that.
    We are resetting in stride to get back to that surge 
capacity so that we can best enable the accomplishment of our 
Defense Strategic Guidance requirements.
    In terms of its interoperability with the joint force, we 
operate as a joint force frequently. We do joint exercises to 
make sure that we ensure our tactical and operational prowess. 
The AirSea Battle concept, soon to be the Joint Concept for 
Access and Maneuver in the Global Commons, is simply an 
extension of a joint synergy and operational capability that 
will ensure all-domain access.
    In terms of where I think the Congress can fit into this 
process, it is through enhancing your knowledge of how these 
joint capabilities fit together, participating in some of the 
special trips that you have done recently up to the Naval War 
College to see the extraordinary modeling, the extraordinary 
war-gaming that goes on, the joint interfaces and connections.
    Getting--receiving briefs, out briefs, on the major joint 
exercises that take place, as well as the real world operations 
that take place at the joint level in support of the ongoing 
conflicts that still continue.
    And again, I would be remiss if I didn't say the biggest 
role I think is being able to provide that stability for us, 
for that funding that goes to not only the ability to meet our 
maritime functions but our joint functions.
    Mr. Gibson. Thank you, Admiral. My time has expired.
    Mr. Wittman. Thank you, Mr. Gibson.
    Admiral Harley, the Optimized Fleet Response Plan is a 
great model to integrate decision making, to create the balance 
between maintenance, between training and deployment. And you 
talk about those metrics we want to make sure we maintain, and 
that is to keep ships on schedule to be maintained, make sure 
sailors get enough training, make sure deployment schedules are 
at 7 months.
    You talk about predictability and sustainability.
    The challenging part of that is the world we live in is not 
predictable. Whether it is Congress and what happens in the 
funding stream or whether it is what our adversaries do, that 
predictability in that realm is what you have to deal in.
    So the question then becomes, of the metrics that you speak 
of, which ones do you say are so important that you have to 
adjust others to move in order to compensate for let's say 
staying on a 7-month deployment cycle, or saying that we will 
not skip a maintenance availability in the yard because we know 
what then happens to the fleet down the road?
    Give us a perspective about how when you meet those 
unpredictable elements, the contingencies that invariably come 
up, give us a perspective because we have seen what happens in 
the past when those situations happen and how certain things 
throw an O-FRP out of whack, and then we find ourselves back in 
what do we do to compensate for that.
    So give me your perspective as you face this contingency or 
that uncertainty, what--how the O-FRP would respond to that.
    Admiral Harley. Sir, the O-FRP is designed to be a 
sustainable model. And what you are talking about are things 
that can throw the timing and the sequence of events out of 
line, whether it is global events or some significant 
maintenance discovery that results in a very extensive 
maintenance for a particular carrier, as an example.
    In terms of providing that perspective, the O-FRP is 
tracked through a master O-FRP production plan, which outlines 
the alignment of all these different programs, manpower, 
logistics, personnel, parts, ordnance, to create that wholeness 
in readiness for a specific strike group, as an example.
    Real world events will cause changes to the production 
planning. If somebody's maintenance gets extended beyond our 
ability to absorb it within the shock absorber that is built 
into the Optimized Fleet Response Plan, we would have to adjust 
accordingly and modify the schedules to be able to do that.
    We have the capacity to do that. We have picked a 7-month 
deployment in particular to give us flexibility if we really 
had to go to 8 months. It is not optimal. It is not what we 
want to do for all the reasons that are described today. But it 
is one of the options available to us.
    Another option is to reduce our global input as to what we 
can provide for a designated period of time and to mitigate 
that presence, that carrier presence, in some other way, using 
our joint partners, using joint aircraft to cover a gap in time 
where we may not actually have a carrier present.
    But we do have methodologies, we do have tools that we can 
use to deal with real world contingencies. Now our hope, of 
course, and because probably the most pressing of the issues 
that you identified is if there is a real world contingency 
that requires. Of course we have the Global Response Force and 
its ability to respond.
    We track daily the ability of being able to surge aircraft 
carriers and all other platforms and how quickly they can 
respond to a crisis. Our desire is that our global force 
offering as adjudicated by the Secretary of Defense will be 
adequate.
    But your Navy maintains a readiness to respond to all of 
those issues. Our desire is to be able to reset in place, to 
reset in stride so that we can get to a place where that two-
plus-three surge capacity is the norm and not merely a goal.
    Captain Burke. And sir, if I could just add briefly, the 
world is not predictable, as you very correctly said, but 
maintenance should be. So if we get a disciplined process in 
place and we get back to predictable maintenance and we build 
back the surge capacity, as the Admiral said, well, there--once 
we build back that surge capacity, there is a lot of 
sustainment time for our ships after they come back from 
deployment.
    That gives you a lot of flexibility. But we need to get--we 
need to get back to a disciplined maintenance schedule, get it 
done--get these ships out on time, build back that surge and 
then you are going to see a lot of flexibility. But it is going 
to take a little while.
    Mr. Wittman. One thing, too, that doesn't get mentioned in 
O-FRP, to have another tool to buffer this unpredictability in 
the world around us is the total number of ships in our fleet. 
And looking at what ship construction takes us to in the 
future. And as we know, we put more and more pressure on our 
sailors, on our ships, if the number of ships in our fleet are 
static.
    So Admiral Harley and Captain Burke, give me your 
perspective, too, on how important it is to make sure that we 
get to that fleet number, whatever it may be, 311 is I guess 
the most recent number--tell me how important it is to make 
sure not only that we stay on track to do the maintenance, but 
that new ship construction stays on schedule?
    Admiral Harley. Sir, the CNO has testified and has placed 
in his maritime strategy the need for at least 300 ships to be 
able to execute all of the missions within the Defense 
Strategic Guidance. Reduced numbers of ships make achieving all 
of our mission sets certainly more difficult.
    So I am sure the Secretary of the Navy and the Chief of 
Naval Operations and probably every naval officer would testify 
to the fact that we need to get to the designated number of 
ships as rapidly as possible. It gives us greater flexibility, 
greater agility, our ability to meet our Defense Strategic 
Guidance.
    Captain Burke. And sir, as you alluded to, the cheapest 
ship we have out there is one we already have. We have just got 
to take care of it and make sure that it lasts for its full 
expected service life. So that is step one.
    Mr. Wittman. Very good. Thank you.
    Ms. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman.
    I just have a couple of quick questions here. Captain, 
maybe--I think you may be able to answer this one. I am 
concerned about the continued degradation of the workforces in 
some private shipyards. The lack of consistent work has created 
challenges across the country, including my own district of 
Guam.
    So I do appreciate the efforts to address the challenges we 
have regarding the ship repair capabilities on Guam, but there 
are broader issues.
    What actions is the Navy taking to address the challenges 
at public and private shipyards that could affect the Navy's 
ability to complete ship maintenance on schedule?
    Captain Burke. So a very important question, ma'am. And we 
are trying to make sure that we--by using O-FRP, we are looking 
out on a longer timeline and so we are able to tell those 
private yards, give them a sense much earlier than we have in 
the past of when we are going to want that ship to come into 
the yards so they can have their business model correct and 
their shipyard sized appropriately to bid for the work 
effectively and get it.
    Because we want them all to succeed, right? We want them to 
come into the yards and not throw them curve balls. We have 
been throwing them a lot of curve balls. Bringing--having ships 
come in out of cycle, having one ship go long, causing another 
ship's availability to be delayed or canceled or significant 
parts of it deferred.
    And then we are throwing all kinds of curve balls at both 
our public and our private yards and asking them to somehow 
succeed. And that hasn't been effective for us. So we are 
trying to stop chasing our tail and get this disciplined plan 
in place that allows everybody to execute to a schedule and 
breathe easier.
    And once we get it in place we will have a lot of 
flexibility to deal with the real world.
    Ms. Bordallo. Okay. So they would be part of the plan 
then----
    Captain Burke. Yes, ma'am.
    Ms. Bordallo [continuing]. To give them time to get ready 
for whatever is coming to their shipyard.
    Admiral, how many ship maintenance availabilities were on 
time in fiscal year 2014, and how many are on schedule in the 
current fiscal year? The Captain, I guess----
    Captain Burke. Ma'am, the----
    Ms. Bordallo. 2013.
    Captain Burke [continuing]. Roll-up--the roll-up metric we 
have for that, is that we want to be on cost and on schedule 
with 60 percent of our availabilities.
    It is not honestly a great metric, because it doesn't tell 
you if you are 5 days late on availability or 50 days late, $1 
million over or $10 million--it doesn't give you much sense of 
things.
    But our goal is 60 percent. We haven't met that in 2\1/2\ 
years.
    So in my mind--
    Ms. Bordallo. What is the percent then?
    Captain Burke. Right now? It is probably--I could get back 
to you for the record, ma'am, but it is probably in the 40s.
    [The information referred to can be found in the Appendix 
on page 43.]
    Ms. Bordallo. I was going to say, under 60. Maybe 40.
    Captain Burke. Yes, ma'am. That is right. And it has been a 
few years----
    Ms. Bordallo. Is that 2013?
    Captain Burke. It has been a few years since we have been 
able to get to 60 percent.
    Ms. Bordallo. I see.
    Captain Burke. So that, I think, is the primary driver that 
drove Admiral Gortney and Fleet Forces to say, ``Hey, we gotta 
do something to--spend some more time for maintenance to start 
getting the maintenance done,'' because he was seeing that 
impact, and he was also, of course, seeing compressed training 
cycles and other things that O-FRP is working on.
    But in my mind, the main driver for O-FRP is--it is all 
about maintenance. It is all about fencing the time to do 
maintenance effectively.
    Ms. Bordallo. So Captain, between 2013 and 2014, it still 
remains about the same on a percentage scale?
    Captain Burke. Yes, ma'am.
    Ms. Bordallo. Thank you, and I yield back, Mr. Chairman.
    Mr. Wittman. Thank you, Ms. Bordallo.
    Now we go to Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Gentlemen, I have got basically two last points I would 
like to have answered if you could help me with them.
    One is, we talked a lot about the workforce. What are the 
tradeoffs between using U.S. shipyards, whether they be public 
or private, and overseas maintenance and the potential to 
degrade our industrial capacity if we begin to rely too heavily 
on the work that is done overseas?
    Captain Burke. Well, we rely on work done overseas when we 
need to, and that--we do that in case we have ships forward 
deployed overseas, and it just makes sense to be able to keep 
that ship in the operating environment it is supposed to be in, 
forward deployed, present, to do work over there. So that is 
when we do it.
    In general, all the work is done in the United States 
unless we have some reason that it really needs to be done 
elsewhere.
    Mr. Scott. Okay. So what we are doing overseas is a small 
percentage, and it would basically all be necessary 
maintenance----
    Captain Burke. Yes, sir. Yes, sir, and in some cases, our 
nuclear maintenance, for example, we send our people overseas 
to do the work, so we are still having our folks do the work.
    Mr. Scott. One last question, especially with regard to 
aircraft, for example, a radar system doesn't necessarily need 
to be maintained at a Navy facility if it can be done more 
affordably somewhere else.
    What institutional or statutory barriers do we face with 
regard to the ability to leverage our other services' 
capabilities in areas where they are more efficient?
    Captain Burke. We do that as a matter of course.
    The Secretary of Defense's Office has an office that does 
what we call depot source of repair [DSOR]. The DSOR process 
decides that a particular service is more economical for a 
particular function and looks to streamline and put that 
business, if you will, towards the most effective agency to do 
it.
    And so Navy has work done with the Army and the Air Force 
and vice versa in a variety of ways.
    Mr. Scott. And there are no statutory barriers?
    Captain Burke. Not to my knowledge, sir.
    Mr. Scott. All right. Thank you, gentlemen.
    Mr. Wittman. Thank you, Mr. Scott.
    Gentlemen, thank you so much for coming to join us today 
and for your perspective on O-FRP. We know that our job is to 
make sure we supply you with that predictability and 
sustainability to help you do your job. That is our job, and as 
Mr. Scott pointed out, as well as other members, we have our 
work cut out for us here.
    But thanks again for what you do. Please continue to stay 
in touch with us, too, on things that we can do to make sure 
that we are gaining your perspective so decisions made up here 
coincide with what you are charged to do under O-FRP.
    So thanks again for your testimony today, and thanks for 
your service to our Nation.
    [Whereupon, at 9:15 a.m., the subcommittee was adjourned.]

     
=======================================================================



                            A P P E N D I X

                           September 10, 2015
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 10, 2015

=======================================================================

      

      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           September 10, 2015

=======================================================================

      

             RESPONSE TO QUESTION SUBMITTED BY MS. BORDALLO

    Captain Burke. 13 of the 59 (22%) Fiscal Year 2014 CNO 
availabilities completed on time or early. In Fiscal Year 2015, 19 of 
52 (36%) completed on time or are still in progress tracking to 
complete on time. This includes both naval shipyards and private ship 
repair facilities.   [See page 21.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. COURTNEY
    Admiral Harley. OCO is essential to OFRP execution because 20% of 
baseline ship depot maintenance requirements are paid by OCO, as are 
some non-deployed steaming days. However, OCO is not a remedy for 
baseline shortfalls caused by sequestration or a continuing resolution. 
The FY 2016 President's Budget, which is a combination of baseline and 
OCO funding, reflects the balanced readiness program required to 
generate trained forces to meet the Navy's worldwide commitments to the 
regional Combatant Commanders, while at the same time executing the 
maintenance required to preserve the long term health of the force.   
[See page 11.]

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
